y-56i

No.

3lt Wfyt

a;-;,

[] / V r p, fr p p

Supreme Court of tfje fHmteb £>i
'??_.* lJ 'L_ • J \

Kenneth A. Pruitt,
Petitioner,
v.

■■ ;J r\ VJ i). ’1 '■ $v,

Supreme Court, U.S.
FILED

OCT 1 2 2021

Joseph Robinette Biden Jr., acting alone, or in concert, in i
purported official capacity; John Forbes Kerry, acting alonlg-OFFICE OF THE CLERK
or in concert, in a purported official capacity; United States
(U.S.) Department of Treasury, acting alone, or in concert;
U.S. Environmental Protection Agency, acting alone, or in
concert; U.S. National Institute of Environmental Health
Sciences; acting alone, or in concert; Michael Regan, head of
EPA; Richard Woychik, head of NEIHS, and Janet Yellen,
head of USDT; Heads of USDT, EPA, and NIEHS unnamed
for 2021 and later due election transition, said heads named
individually in his/her official capacity and when not acting in
his/her official capacity but acting ultra vires, acting either
alone or with unknown and unnamed other persons
improperly causing violations of U.S. domestic law referenced
within 2006 U.S. entry to 2003-31-OCT MERIDA UNITED
NATIONS CONVENTION AGAINST CORRUPTION
(UNCAC) and/or violate UNCAC,
Respondents.
On Petition for a Writ of Certiorari to review denial
by Court of Appeals for the Fifth Circuit
of a colorable constitutional claim

PETITION FOR WRIT OF CERTIORARI
Kenneth A. Pruitt, pro se
Trailer Village RV Park
16580 N. US Hwy 59
Garrison, Texas 75946
(936) 714-3811
kap8063@yahoo. com

1

QUESTION(S) PRESENTED
As used herein, “Respondent Ultra Vires Actor”
(RUVA) means any Respondent, either individual or
agency, not acting within authorized scope of official
capacity of governmental authority but acting ultra
vires, acting either alone or with unknown and
unnamed other persons improperly causing
violations of U.S. domestic law referenced within
2006 U.S. entry to 2003-31-OCT MERIDA UNITED
NATIONS CONVENTION AGAINST
CORRUPTION (UNCAC) and/or violate UNCAC.
As used herein, Paris Climate Accord (PCA) means
“Paris Climate Accord” and is also called “Paris
Climate Agreement”, “Paris Agreement”, “Paris
Accord”, or “Accord du Paris” in references cited in
for Petitioner’s Complaint (ROA 1).
Question One: Can Counsel for Respondent
U.S. Government defend or assist RUVA for
ultra vires acts outside scope of government
authority, when RUVA has not filed any denial
of corrupt acts alleged by this case?
Petitioner’s Complaint (ROA 1) and many other
papers complain that RUVA’s own published
statements of plans to act, and actions, prove misuse
of influence, fraud and bribery and thus are corrupt
or violate UNCAC standards.
Petitioner placed, on April 12, before the District
Court outcome determinative questions of law
regarding RUVA and their PCA statements.
Petitioner requested decision or certification to the

11

Fifth Circuit Court of Appeals of said questions of
law.
Counsel for Respondent Government filed motions
for extension, stay and dismissals.
RUVA has failed, either pro se or by non-government
counsel, to file any denial of corrupt acts alleged by
this case.
Petitioner asks this Supreme Court to decide if
Counsel for Respondent U.S. Government can defend
or assist RUVA for ultra vires acts outside scope of
government authority, especially in this case, where
RUVA has not filed any denial of corrupt acts
alleged by this case and said counsel risks conflict or
breach of duty.
Question Two: Can RUVA fail or refuse to
enter denial of corrupt acts outside scope of
government authority or fail to answer or file
other responsive pleading, either pro se or by
non-government counsel, and not be in
default?
Petitioner asks this Supreme Court to decide if
RUVA are in default. Why should RUVA be excused
from basic default many months after failure to file
any denials or any other responsive pleading before
lapse of FRCP 12 shortened twenty-one (21) day
period for reply by non-government persons and
after multiple motions by Petitioner for declaratory
and default judgment?

Ill

Question Three: Given 28 USC 636(b)(1)(A) has
express delegation limit on District Court’s
delegation to a Magistrate Judge:
“except for injunctive relief...”
does 28 USC 636(b)(1)(A) limit scope of
assignment of administrative authority to
Magistrate Judge in a manner to prevent
delays of injunctive relief, causing de facto
denial thereof?
Petitioner complained to CA5 that delays by
Magistrate Judge’s extension and stay caused de
facto denial of timely injunctive relief even though
636(b)(1)(B) allows creation by Magistrate Judge of
proposed findings of fact and recommendations.
Petitioner asks this Supreme Court to decide if CA5
made error of law by not granting Petitioner relief
when District Court Judge made error of law, in case
where injunctive relief is essential for protection.
Petitioner complained to CA5 about delegation by
District Court of broad case administration to
Magistrate Judge in manner which allowed
Magistrate Judge to withhold injunctive relief by
extension and stay.
Question Four: Does 636(b)(1)(B) allow
District Court Judge to accept Magistrate
Judge’s proposed findings of fact and
recommendations and then deny Petitioner’s
injunctive relief when neither District Court
Judge nor Magistrate answered outcome
determinative questions of law presented by
Petitioner that set boundary between

IV

authorized acts versus ultra vires acts of
RUVA?
Questions of law presented by Petitioner for
protection of his property interests were specific to
RUVA’s violation of Constitution Article II Section 2
- lack of advice, consent and two-thirds Senate
approval required for treaty formation or change and thus were outcome determinative in context of
Paris Climate Accord (PCA) related ultra vires acts.
Petitioner complained to CA5 that District Court
Judge made error of law by denying Petitioner
injunctive relief to restrain RUVA actions outside
scope of authority without answering Petitionersubmitted outcome determinative questions of law
that set boundary between authorized acts versus
ultra vires acts of RUVA.
Petitioner asks this Supreme Court to decide if CA5
made error of law by denying Petitioner injunctive
relief to restrain RUVA actions outside scope of
authority without answering Petitioner-submitted
outcome determinative questions of law that set
boundary between authorized acts versus ultra vires
acts of RUVA.
Petitioner asks this Supreme Court to now decide
those PCA related questions of law presented by
Petitioner.
Question Five: Can Clerk(s) unilaterally deny
access to Justices of this Supreme Court for
judicial decision as to whether this Court has

V

original jurisdiction pursuant to Constitution
Article III, Section 2:
“In all cases affecting ambassadors, other
public ministers and consuls, and those
in which a state shall be party, the
Supreme Court shall have original
jurisdiction.”?
Petition submits that neither Respondent Kerry, nor
Biden, nor any other RUVA, can deny their own
Exhibit 5 statements posted on White House and
Department of State websites or RUVA video
releases.
Petitioner asks this Supreme Court to decide if
denial by Clerk(s) for access to justice from this
Court is error of law in this case:
(i) because this case is specific to and affects
Respondent Kerry in his role as Special Envoy for
Climate which is clearly within Article III, Section 2:
“all cases affecting ambassadors, other
public ministers and consuls>
(ii) neither Respondent Kerry, nor Biden, nor any
other RUVA have entered denials or objections, not
even appearance, either pro-se or by non-government
counsel,
Question Six: Can Clerk(s) of Fifth Circuit
(CA5) and Clerk(s) of this Supreme Court
unilaterally deny access to judges for judicial
decision of serious constitutional questions?

VI

Clerk(s) of this Supreme Court have previously
returned to Petitioner his check for filing fee and
each Petition for Writ of Certiorari filings prior to
this one, Each filing complained of ‘de facto decision’
by delay and harm caused by delay. Prior to this
Petition, Petition could not attach Rule 14 paper
decision yet only point to loss of rights and harms by
de facto decision(s) by delay.
Petitioner asks this Supreme Court to decide if said
Clerks’ unilateral denial of access to Judges/Justices,
without senior Court review, overrules longstanding
CA5 principles of U.S. v. Woods 295 F 2nd 772 (CA5
1961) that 28 USC 1291 does not require final
order before appeal in all cases, to wit:
“The denial of the restraining order is thus
equivalent to the dismissal of the [claim] of
the complaint on the ground that it does
not state a claim upon which the requested
injunctive relief can be granted. To then
call this de facto dismissal a
nonannealable interlocutory order is
to preclude review altogether. As a
practical matter, then, it is clear that the
denial of the restraining order is a
final disposition Tof claimed right]”
“On the basis of these cases, we [Fifth
Circuit] feel that the Supreme Court
has approved a practical construction
of section 1291 and that an order,
otherwise nonappealable, determining
substantial rights of the parties which
will be irreparably lost if review is
delayed until final judgment may be

Vll

appealed immediately under section
1291.”
“We [Fifth Circuit], therefore,
determine the denial of the temporary
restraining order to be a final
decision, appealable under 28 USCA
1291.”
Petitioner contend rights to protection are lost if
review(s) are delayed unreasonably causing ‘de facto
decision in favor other party’ by preventing relief.
Petitioner thus asks this Supreme Court to decide if
said Clerks’ unilateral multiple denials of access to
justice in this case are also inconsistent with Ninth
Circuit principles of Religious Tech. Ctr. v. Scott,
869 F.2d 1306, 1308 (9th Cir. 1989) finding as
appealable an Order denying a TRO after a nonevidentiary adversary hearing because:
“The futility of any further hearing was... patent.”
Petitioner thus asks this Supreme Court to decide if
there is a split of‘de facto’ principles in the Circuits,
such as Woods supra and Religious Tech. Ctr. supra
and address how ‘de facto’ decisions denying
protection are avoided.
Question Seven: Does unreasonable delay
‘deny any judicial forum for a colorable
constitutional claim’ present a serious
constitutional question’?
After Supreme Court Clerks’ return of papers with
refusal to file for lack of jurisdiction, Petitioner at
May 14 attempted to file again and asserted to

Vlll

Clerks of this Court that Supreme Court jurisdiction
was proper for four (4) reasons:
(1) original jurisdiction via Article III, Section 2,
(2) 28 USC 28 USC §2101(e) certiorari is
proper anytime before judgment
“(e) An application to the Supreme Court
for a writ of certiorari to review a case before
judgment has been rendered in the court of
appeals may be made at any time before
judgment”.
(3) Congress’ “access prohibition statutes/rules”
are unconstitutional (for example, 28 USC §1254
and 1257 and Rule 14 applied by Clerks to deny
access) if applied to bar citizen access to the
Supreme Court when lower courts fail to timely
hear urgent, emergency matters and rights are
damaged or lost (as happened in this case) and
(4) refusal to consider a Petition is itself a
violation by the Supreme Court, its staff and
associated government Respondents,
(i) of USA domestic law referenced within 2006
USA entry to UNCAC and
(ii) of UNCAC, because refusal is hard evidence
that USA does not have adequate laws providing
adequate access to justice complying with
UNCAC.
The above (4) is complex. Courts below failed to
address. Government Respondent U.S. represented

IX

to the World in 2006 that U.S. has adequate laws
providing adequate access to justice complying with
UNCAC.
Petitioner asks this Supreme Court to decide:
(a) if Government Counsel motions for extension,
stay and dismissal - in they were manner made enabled RUVA to continue ultra vires acts which are
corrupt?
(b) if Clerks’ unilateral denial of access to
Judges/Justices to seek quick protection before
corrupt acts occur also enabled RUVA to continue
ultra vires acts which are corrupt?
(c) if Courts’ refusal to answer Petitioner-submitted
outcome determinative questions of law that set
boundary between authorized acts versus ultra vires
acts of RUVA in regard to PCA also enabled RUVA
to continue ultra vires acts which are corrupt?
(d) do any of (a) or (b) or (c) prove that U.S. does not
now have in 2021 adequate laws preventing
corruption that comply with UNCAC as U.S. did at
2006 UNCAC entry?
A particularly egregious example is CA5 Clerk
refusing to take action, without conference, on
Petitioner’s September 20 and 27 motion for
clarification and supplement regarding CA5’s
dismissal of case based on motion by counsel for
Respondent Government.

X

Petitioner stated in motion for reinstatement that
conference of all is impossible or impractical since
(i) Petitioner can only confer with Counsel for
Respondent Government who cannot represent
RUVA acting ultra vires, plus
(ii) RUVA acting ultra vires, after six plus months,
has never appeared pro se or by non-government
counsel or filed denial of corrupt acts or other
responsive pleading.
Petitioner asks this Supreme Court to decide:
(a) if the Courts and Government Counsel must
remain independent of ultra vires actors found
within Executive Branch for U.S. to keep a UNCAC
compliant legal system?
(b) if Government Counsel must owe its solemn duty
and respect of privilege to Respondent Government
of the people, as its client, not individual ultra vires
actors found within Executive Branch?
Petitioner petitions this Supreme Court to decide,
before RUVA putative representations of
commitments at October 31 start of UN Glascow
climate conference of partes, if this Supreme Court
will grant urgent injunctive relief to protect against
RUVA false representations regarding purported
U.S. commitments related to PCA for
(w) binding U.S. emissions reduction,
(x) payments by U.S. to developing countries,

XI

(y) taxation of U.S. activities and products, and
. (z) U.S. taking, value destruction, or waste of
Federal property and private property such as
Petitioner’s mineral interest without due process
and compensation,
all until further action by this Supreme Court
regarding RUVA compliance with Article II, Section
2 treaty advice, consent and two-thirds approval by
U.S. Senate.
Question Eight: Confirm that, in view
Petitioner’s Complaint and this Petition, that
this Court is not rendering an ‘advisory
opinion’ but instead, this Court is answering
questions of law to set injunctive relief
boundary between permitted scope of
Respondents’ conduct and ultra vires conduct
which is prohibited? Those questions are:
Question 1: Is Paris Climate Agreement (PCA) a
binding, enforceable treaty under USA Constitution?
First sublevel Question(s) of law for the Court
depending on answer to Question 1:
(l.a.) If PCA is a treaty binding USA to reduce
emissions, then how can Respondent Biden
unilaterally “return the United States to the Paris
Agreement” [public statement, White House Press
release] without advice, consent and 2/3’s vote of
approval of the USA Senate as required USA
Constitution?

Xll

(l.b.) If PCA is a treaty binding USA to
reduce emissions, then how can Respondent Biden
(and other Respondents) [public statement, White
House Press release] unilaterally change a USA
treaty “2030 emissions target as its new Nationally
Determined Contribution under the Paris Agreement
“ without advice, consent and 2/3’s vote of approval of
the USA Senate as required USA Constitution?
(l.c.) If PCA is not a treaty binding USA to
reduce emissions and Respondents fail to tell the
World that PCA is not binding on USA, do
Respondents commit misuse of influence or fraud by
purporting USA [public statement, White House
Press release] “ also will contribute”, versus may try
or may seek Legislative approval to commit?
Question 2: Does PCA unconditionally bind all other
countries/signatories to PCA to comply with
emissions reductions of their IDNC (Individually
Determined National Commitments) attachments to
PCA or do INDCs contain conditions to/exceptions for
performance? thus being “sometimes binding,
sometimes not?”
Question 3: Does PCA provide Executive Branch
Respondents with Constitutional valid authority to
unilaterally cause abandonment or waste of private
or State owned fossil fuel assets (not Federally
owned assets) without due process and
compensation?
Question 4: If PCA and INDC are not binding on
USA or developing countries, nor enforceable as a
treaty, but instead are terminable or capable of

Xlll

revision by later administrations, do Executive
Branch Respondent person(s) mislead public when
asserting that PCA will commit USA or developing
countries to reducing emissions?
(i) by representing to the public that signing
PCA is a “return the United States to the Paris
Agreement”, when such is not a treaty commitment
on emissions reductions?
(ii) in spending or transferring monies related
to PCA activities without express Congressional
approval?
(iii) is activity 4.(i) or 4.(ii) an egregious act of
fraud, bribery or misuse of influence when signor or
key climate advisor to signor also voted for 1997 S.
Res. 98 prohibiting USA entry (then or now
thereafter) to class of agreement within which PCA
would fall if binding (i.e. mandate USA entities or
persons to limit or reduce greenhouse gas emissions
while developing countries do not or cause serious
harm to USA economy) without Senate approval?

XIV

TABLE OF CONTENTS
Question(s) Presented

1

Table of Contents

xiv

Table of Authorities

xvi

Introduction

1

Opinions Below

2

Jurisdiction

2

Constitutional and Statutory Provisions

19

Statement of the Case

24

Reasons for Granting this Petition

29

Conclusion

34

APPENDIX:
Exhibit 1: June 15, CA5 three-judge panel order
denying Petitioner’s emergency motion.................. A1
Exhibit 2: September 13, CA5 three-judge panel
order which granted motion to dismiss for lack of
jurisdiction filed by Respondent Government’s
counsel and denied Petitioner’s motion for a
restraining order........................................................... A2
Exhibit 3: 1997 Senate Resolution 98 (with ‘yea’
votes by Biden and by Kerry)................................

A3

XV

Exhibit 4: Principles of Ethical Conduct for
Government Officers and Employee.............

A9

Exhibit 5: Adjudicative Facts for which Petitioner
requests Rule 201(c)(2) Judicial Notice
A12
Exhibit 6: (Draft) ORDER FOR INJUNCTIVE
RELIEF ..............................................................

A19

XVI

TABLE OF AUTHORITIES
Constitutional Provisions
Article I, Section 7
Article II, Section 2
Article III, Section 2
First Amendment
Fifth Amendment
Fourteenth Amendment
Treaties and International Arrangements
1992 United Nations Framework Convention on
Climate Change (UNFCCC)
2003-31-OCT MERIDA UN CONVENTION
AGAINST CORRUPTION (UNCAC)
Paris Climate Accord, including ~ 195
(Intended) Nationally Determined
Contributions (PCA)
Statutes/Rules (including those cited in Complaint)
5 U.S.C. 556
5 U.S.C. 557
5 U.S.C. §702
5 U.S.C. § 706(2)(A)-(D)

8 U.S.C. § 1346
28 U.S.C. § 636(b)(1)(A) and (B)
28 U.S.C .§1254(1)
28 U.S.C.§ 1291
28 U.S.C. § 1331
28 U.S.C. §1361
28 U.S.C. § 1391(b)(2), (e)(1)(B) (e)(2)(C)
28 U.S.C. § 1402(b)
28 U.S.C. § 1651 (a) (b)
28 U.S.C. § 2201, 2202
41 U.S.C. §7101

XVII

Federal Rules of Civil Procedure 12, 25, 57
Federal Rule of Appellant Procedure 5, 27
Cases (including those cited in Complaint)
California Democratic Party v. Jones,
530 U.S. 567 (2000)
Canadian Transp. Co. v. United States,
663 F. 2d 1081 (CADC 1980)
Elrod v. Burns,
427 U.S. 347 (1976)
Foster & Elam v. Neilson,
27 US (2 Pet.) 253 (1829)
Mannington Mills, Inc. v. Congoleum Corp.,
595 F. 2d 1287 (CA3 1979)
Medellin v Texas
552 U.S. 491 (2008)
Religious Tech. Ctr. v. Scott
869 F.2d 1306, 1308 (9th Cir. 1989)
United States v. Emuegbunam,
268 F. 3d 377 (CA6 2001)
United States v. Jimenez-Nava,
243 F. 3d 192 (CA5 2001)
United States v. Li,
206 F. 3d 56 (CAl 2000)
United States v. Woods
295 F 2nd 772 (CA5 1961)
Webster v Doe
486 U.S. 592, 603 (1988)
Youngstown Sheet & Tube Co. v. Sawyer,
343 U. S. 579 (1952)
US Senate Records
Senate Resolution (S. Res. 98). Exhibit 3
https://www.congress.gov/bill/105thcongress/senate-resolution/98

XV111

Government Publications
Exhibit 4
Principles of Ethical Conduct for
Government Officers and Employees.
Judicial notice of adjudicative fact
Rule 201, Federal Rule of Evidence at 201 (a)
governs judicial notice of an adjudicative fact and (b)
fact that can be accurately and readily determined
from sources whose accuracy cannot reasonably be
questioned.
Rule 201(c)(2) requires that the Court “must take
judicial notice if a party requests it and the court is
supplied with the necessary information”.

-1 PETITION FOR WRIT OF CERTIORARI AND
JURISDICTION FOR THIS PETITION
Petitioner Kenneth A. Pruitt, pro se, respectfully
petitions for writ of certiorari to review the judgment
of the United States Court of Appeals for the Fifth
Circuit (CA5) in this case. For brevity, all dates
herein are 2021 unless otherwise noted.
At June 15, a three-judge CA5 panel order denied
Petitioner’s emergency motion.
At September 13, a three-judge CA5 panel order
granted motion to dismiss for lack of jurisdiction
filed by Respondent Government’s counsel (as for
one “Appellee’s” motion singular possessive) and also
denied Petitioner’s motion for a restraining order.
The orders of CA5 are attached as Exhibit 1 and 2.
This Court’s jurisdiction rests in part on 28 U.S.C
1254(1). Other jurisdiction foundations are below.
Petitioner filed timely motions with CA5 for
clarification (September 20 and 27) and
reinstatement (October 4). Clerk CA5 gave
September 29 notice that no action will be taken on
motions for clarification without conference.
Petitioner responded conference with ultra vires
actors not filing answers or appearances should not
be required.
Electronic record system (PACER) shows case below
(CA5 No. 21-40310) as ‘terminated’.

-2Kenneth A. Pruitt pro se respectfully petitions for a
writ of certiorari for review of decision of United
States Court of Appeals for the Fifth Circuit (CA5).
OPINIONS BELOW
At June 15 (Exhibit 1), CA5 denied Petitioner’s
motion for emergency order.
At September 13 (Exhibit 2), CA5
(a) granted motion to dismiss for lack of jurisdiction
filed by Respondent Government’s counsel
(‘Appellee’s” singular possessive) and
(b) denied Petitioner’s motion for a restraining order.
In Motions for Clarification and Supplement and for
Reinstatement, Petitioner contended that
‘Respondent Government’ is not same as
‘Respondent(s) ultra vires’ who act outside scope of
governmental authority. CA5 Clerk gave notice that
no action would be taken without FRCP 27
conference. Petitioner contended conference is not
possible since RUVA have not filed answers or
entered other appearance.
Petitioner’s Case below (CA5 No. 21-40310) is shown
as ‘terminated’ in PACER system.
JURISDICTION
A. Jurisdiction for this Petition for Writ of
Certiorari
1) This Court’s original jurisdiction rests on
Article III Section 2:

-3“all cases affecting ambassadors, other
public ministers and consuls”
Petitioner asks this Court find specific portion of this
case affects Respondent Kerry in his role as Special
Envoy for Climate which is clearly within Article III,
Section 2 scope. Petitioner’s CA5 Brief also stated.
2) This Court’s jurisdiction can alternatively
rest on 28 U.S.C. § 1254(1). It provides:
“Cases in the courts of appeals may be
reviewed by the Supreme Court... 1) By writ
of certiorari granted upon the petition of any
party to any civil or criminal case, before or
after rendition of judgment or decree”.
Petitioner’s Complaint and CA5 Brief also stated.
3) This Court’s jurisdiction alternatively rests
on 28 U.S.C. § 1651 (a) or (b) “all writs” original
jurisdiction. They provide, as stated in Petitioner’s
January Complaint:
(a) [t]he Supreme Court and all courts
established by Act of Congress may issue all
writs necessary or appropriate in aid of their
respective jurisdictions and agreeable to the
usages and principles of law, which would
include quo warranto, and
(b) [a]n alternative writ or rule nisi may be
issued by a justice or judge of a court which
has jurisdiction. [See also Petitioner’s
Complaint and CA5 Appeal Brief, page 20,
para 16 and 20.]

-4Petitioner asks this Court find that the law of the
Fifth Circuit is as stated in U.S. v Woods supra. In
Woods supra, District Court delay caused de facto
decision against injunctive relief resulting in harm
without protection, loss of rights and damages.
At time of Woods supra, Government’s position taken
was that:
“In the alternative, if the order is not
appealable, the Government insists that this
Court has jurisdiction of [its] petition for
injunction under the all-writs statute, 28
USCA 1651.”
Petitioner asks this Court find that now, when
‘Plaintiff/Defendant’ roles are reversed, it is unjust
for Respondent Government to argue strict, and
unfair, procedures enable dismissal of Respondent
Government, and RUVA as well, even though
Counsel for Respondent Government cannot
represent RUVA and RUVA have not answered.
4) This Court’s jurisdiction rests on firm
foundation right to First Amendment petition
the government for redress of grievances,
especially for taking or damaging of Petitioner’s
property interest without due process or
compensation.
Denial of any judicial forum by courts below for
colorable constitutional claims presents a serious
constitutional question, Webster v Doe supra.
U.S. citizens are entitled to clear foundation turf of
Constitutional protection, not hazy mist of political
short-cuts.

-5U.S. greatness is based on check-balance where
elected Senators must render advice, consent and
two-thirds vote of approval to climate treaties and
causing fundamental shifts in U.S. economic
structures and taking of, or damaging values of,
private property as well as waste of Federal
property.
Petitioner asks Supreme Court to look at the
iceberg, not deck chair arrangement procedures.
Petitioner asserts the Ship of State is pirated
by RUVA toward climate-economic iceberg.
Ultra vires pirating will result in serious harm
to the U.S. economy, and unfair, associated,
taking or value damaging of Petitioner’s (and
others’) property interest without due process or
compensation and without equal protection.
Taking(s) and value damaging(s) are not required of
developing countries by PCA. See Exhibit 3.
Court Clerks and Counsel for Respondent
Government push back, and delay, away from true
answers to Petitioner’s questions of law about PCA.
Answers to those point to basics of what is pirating
and what is not.
Improper push back that denies path to truth
is akin to ship officer telling passenger
Petitioner:
“don’t point to iceberg and don’t
complain of iceberg risk now;

-6all deck chairs must first be arranged
per strict procedures of the Titanic,
come back when desk chairs are
arranged.”
It is dangerous to disregard merits of
substance of Petitioner’s Complaint by
applying deck chair arrangement procedures
important for typical commercial disputes
between two fighting commercial parties.
In this case, one key party - Respondent
Government (and its counsel) - should seek the
truth of boundaries and prevent corrupt acts,
not push away from finding the truth.
Substantive over form is critical for Peoples’
petitions to the government for a redress of
grievances.
Substance over form is most critical for matters of
climate impact on life and death, or great risk
to USA economy, or massive risk of waste or
looting of National Treasury and private assets
Petitioner’s Complaint sets out substantial
constitutional questions about RUVA’s misuse of
influence, fraud and bribery and alleges they cause
both
(a) non-binding commitments for climate
concerns, when instead binding commitments ensure
fairness and protection and
(b) diversions from, and shortfalls in, proper
local U.S. pollution reduction actions, harming
Petitioner and others.

• 7Item (b) is akin to airline guidance that, in an
emergency, a passenger must first put on their own
oxygen mask before assisting others. It is harsh,
and seemingly contrary to desire to help others, but
one must help themselves first to later be able to
help others.
The First Amendment, standing alone, must provide
access to this Supreme Court to address peoples’
petitions to the government for a redress of
grievances to address colorable constitutional claims.
5) This Court’s jurisdiction alternatively rests
on need to correct error of law and judicial
procedure regarding 28 USC 636(b)(1)(B)
‘findings of fact and recommendations’.
In April 12 Motion for Declaratory Judgment
and Notice of Appeal, Plaintiff-Appellant set out
questions of law for decision by the District Court
below or certification to the Appeals Court to decide.
Neither Magistrate Judge nor the District
Court decided those questions [which are same
Questions 1-4 of Question Eight to this Supreme
Court].
Without deciding those questions, their 28
USC 636(b)(1)(B) ‘findings of fact and
recommendations’ are meaningless.
That is, neither Magistrate Judge nor the
District Court determined the boundary between
permissible conduct and ultra vires conduct, nor
applied law to facts.
Judicial notice has been requested of facts of
Respondents’ own words, their own public
statements in press releases which Respondents
RUVA or Government Respondent have never

-8denied. Instead, they only sought procedural escape.
RUVA acting ultra vires, outside scope of their
government authority, are in default.
Petitioner’s questions of law must be decided
now by this Supreme Court to ascertain scope of
restraint of RUVA acting ultra vires, outside scope of
their government authority.
6) This Court’s jurisdiction alternatively rests
on need to correct error of law and judicial
procedure regarding 28 USC 636(b)(1)(A) and
(B) ‘findings of fact and recommendations’.
USC 636(b)(1)(A) excludes ‘motion for
injunctive relief from delegation to a magistrate
judge, to wit:
(A) a judge may designate a magistrate judge to
hear and determine any pre-trial matter pending
before the court, except a motion of injunctive
relief...
28 USC 636(b)(1)(B) enables a judge to
“designate a magistrate judge to conduct
hearings, including evidentiary hearings, and
submit to a judge of the court proposed findings of
fact and recommendations for the disposition”
even for motions excepted by 28 USC 636(b)(1)(A).
However, neither 28 USC 636(b)(1)(A) or (B)
give the judge authority to refer to magistrate judge
all pre-trial management in a manner which caused
extensions of time or stays (‘de facto decisions by
delays’) that are outcome determinative for

-9injunction relief and have effect of denying protection
for interim harm that can occur and did occurred.
In District Court below, District Judge [Clark]
issued “Order [dated September 17] Adopting Report
and Recommendation of United States Magistrate
Judge [Hawthorn]” and denying Petitioner’s “Motion
for Temporary Restraining Order and Iniunctive or
Declaratory Relief’. [Record below 50].
Said District Court Order recites:
“On January 19, 2021, the court referred this case
to the Honorable Zack Hawthorn United States
Magistrate Judge for pre-trial management.
Said District Court Order proves error of law
issues which Petitioner requested CA5 to address in
motions for clarification and restatement. This
Supreme Court must now address.
The Magistrate Judge issued extensions of
time and stay for Government Respondent.
28 USC 636(b)(1)(A) clearly excludes and
denies administrative authority that impacts
injunctive relief even though 636(b)(1)(B) allows
creation by magistrate judge of proposed findings of
fact and recommendations.
It is clear 636(b)(1)(A) and (B) do not give
magistrate judge authority to delay injunctive relief
by extensions and stay, especially in view of
multiple pleas for protection by injunctive relief

- 10 7) Jurisdiction of this Court rests alternatively
on 28 U.S. Code § 1361 action to compel an
officer of the United States to perform his
duty. This Court has jurisdiction of any action in
the nature of mandamus to compel an officer or
employee of the United States or any agency thereof
to perform a duty owed to Petitioner.
Petitioner asks this Supreme Court
(consistent with request in Complaint to Courts
below based on equal protection) for quo warranto or
rule nisi action to resolve a dispute over whether
Biden has the legal right to remain in and hold the
public office of President based on his fraudulent,
knowing misrepresentations of fact about putative
PCA, thus corrupt, and promises to voters to re­
enter the PCA, knowing PCA both (i) violated
Senate Res. 98 for which Biden and Kerry voted
‘yea’ for in 1997 and (ii) is non-binding, nonenforceable and non-enduring, thus committing
misuse of influence to promise voters a re-entry to
PCA in exchange for a vote, then sign PCA on day of
Inauguration knowing it could not be binding for
many reasons.
B. Jurisdiction over Subject Matter of this
Petition
For sake of brevity,
(a) Petitioner incorporates by reference ROAl
Petitioner’s Complaint which details Jurisdiction of
courts below and this Court, as well as Venue and
Standing and
(b) Petitioner highlights the following:

»11 1. Petitioner’s case provides this Supreme Court
with jurisdiction to determine for PCA that which is
hard to believe:
“It is hard to believe that the United States
would enter into treaties that are sometimes
enforceable and sometimes not. Such a treaty
would be the equivalent of writing a blank
check to the judiciary. Senators could never be
quite sure what the treaties on which they
were voting meant. Only a judge could say for
sure and only at some future date.
“To read a treaty so that it sometimes has the
effect of domestic law and sometimes does not
is tantamount to vesting with the judiciary the
power not only to interpret but also to create
the law.”
Above quotes are of Chief Justice Roberts’ in
Medellin v. Texas 552 U.S. 491 (2008) at 510, 511.
2.
Petitioner does not ask the Court to decide if
climate change is (i) real or not, or (ii) human caused
or not, even though life of Petitioner (and many
others) depend(s) upon the climate.
Petitioner’s case provides this Court
3.
jurisdiction to find that PCA is “sometimes
enforceable” (creating unfair, disproportionate
financial obligations on Petitioner (and other USA
taxpayers) and “sometimes not” (not binding on
signatory countries to comply with climate actions).
This Court can find PCA is void of governing law
provisions against which one can clearly test
compliance and void of clauses that impose penalties
for failure to comply.

- 12 4.
Petitioner’s case provides this Court with
jurisdiction to determine if the Constitution forbids
the Executive Branch from signing PCA or renewal
or replacement while Biden, Kerry and other RUVA
know:
(a) PCA is not self-executing even though
Biden represents to American people that signing is
“moving toward a clean-energy future”, and
(b) Senate Resolution (S. Res. 98) exists and
forbids binding entry into PCA. (See Exhibit 3) as
Biden and Biden’s lead climate designee (John
Kerry) voted for S. Res. 98 in 1997 when both were
Senators, and
(c) “the President’s power to see that the laws
are faithfully executed refutes the idea that he is to
be a lawmaker.” Youngstown Sheet & Tube Co. v.
Sawyer, 343 U. S. 579, 587 (1952) cited in Medellin
v. Texas 552 U.S. 491 (2008) at 528.
Petitioner’s case provides this Court with
5.
jurisdiction to determine if signing by Biden of PCA
was improper because Biden, as President, does not
make law to bind domestic persons or foreign persons
to move toward a clean-energy future.
6.
Respondents Biden and Kerry are well aware
(because both voted ‘yea.’ for below cited ‘S. Res 98’)
that, during 1997, the Kyoto Protocol:
(a) was proposed via 1992 United Nations
Framework Convention on Climate Change
(UNFCCC). and that protocol suggested “developed
countries” have greater responsibility to act and
greater financial burden than “developing countries”,
and

• 13 •
(b) was rejected in 1997 by US Senate
resolution ‘S. Res 98’ by Yea-Nay Vote. 95-0. (12)
Senate imposed conditions, ‘then and thereafter’, on
USA becoming a signatory to any international
agreement on greenhouse gas emissions under
UNFCC:
“... United States should not be a signatory to
any protocol to. or other agreement regarding,
[1992 (UNFCCC)] at negotiations in Kyoto in
December 1997 or thereafter which would: (1)
mandate new commitments to limit or reduce
greenhouse gas emissions for the Annex 1
Parties, unless the protocol or other agreement
also mandates new specific scheduled
commitments to limit or reduce greenhouse
gas emissions for Developing Country Parties
within the same compliance period;
or (2) result in serious harm to the
U.S. economy”
7.
Petitioner’s case provides this Court with
jurisdiction to determine that:
(a) S. Res 98 time period of 1997 ‘then and
thereafter’ applies to 2021.
(b) PCA is a protocol to. or other agreement
regarding, 1992 UNFCCC,
whether treaty or not, and whether binding or not.
(c) PCA should not be signed because PCA
provisions contravene S. Res 98
(1) mandate new commitments for USA to
limit or reduce greenhouse gas emissions for USA
as one of the Annex 1 Parties, but the protocol or

- 14 other agreement does not also mandate new
specific scheduled commitments to limit or reduce
greenhouse gas emissions for Developing Country
Parties within the same compliance period; or
(2) result in serious harm to the U.S.
economy.
(d) representations to Petitioner (and other
American people) that signing PCA is “moving
toward a clean-energy future” is misuse of influence
because PCA is not binding.
(e) PCA is not self-executing being
sometimes enforceable and sometimes not, and
subject to cancellation by 2024 or later President­
elect, and
(f) In regard to (e) and PCA, Petitioner asks
this Court to consider whether
“(t)here is a presumption against finding
treaties self-executing having domestic force in
USA courts without further legislation. Medellin v
Texas 552 U.S. 491 (2008), and
even if an international treaty may
constitute an international commitment, it is not
binding domestic law unless Congress has enacted
statutes implementing it or unless the treaty itself
is “self-executing.
8.
Petitioner’s case provides this U.S. Supreme
Court jurisdiction to confirm that the Supreme
Court, not the Executive Branch, has final word on
whether Executive Branch can enter in a material
climate related arrangement with foreign nations
which purports to be binding on emissions without

- 15 “Advice and Consent of the Senate” and “two thirds
of the Senators present concur”, as required by
Constitution Article II, Section 2.
9.
Petitioner’s case provides this U.S. Supreme
Court jurisdiction to confirm that Executive Branch
authority to act, as with the exercise of any
governmental power, “must stem either from an act
of Congress or from the Constitution itself.”
Youngstown supra at 585 (1952).
10.
In Medellin supra, Chief Justice Roberts
writes these thoughts:
“But the responsibility for transforming an
international obligation arising from a non­
self-executing treaty into domestic law falls
to Congress, not the Executive. Foster, 2 Pet.,
at 315.
The requirement that Congress, rather than
the President, implement a non-selfexecuting treaty derives from the text of the
Constitution, which divides the treaty­
making power between the President and
the Senate.
The Constitution vests the President with
the authority to “make” a treaty. Art. II, §2.
If the treaty is to be self-executing in this
respect, the Senate must consent to the
treaty by the requisite two-thirds vote, ibid.,
consistent with all other constitutional
restraints.
“As already noted, the terms of a non-selfexecuting treaty can become domestic law
only in the same way as anv other law—
through passage of legislation by both

- 16 Houses of Congress, combined with either
the President’s signature or a congressional
override of a Presidential veto. See Art. I, §7.
Petitioner’s case provides this U.S. Supreme
11.
Court jurisdiction to confirm that Government
Respondents owe Petitioner duty of compliance with
Principles of Ethical Conduct for Government
Officers and Employees. See Exhibit 4.
That duty owed to Petitioner by Government
Respondents includes disclosure by officers and
employees of waste, fraud, abuse, and corruption as
appropriate.
Failure to disclose corruption or prevent waste of
Federal Property is an unethical, ultra vires act.
12.
Petitioner’s case provides this U.S. Supreme
Court jurisdiction to issue both
(a) writs of mandamus, and
(b) [a]n alternative writ or rule nisi to Biden,
Kerry and other Respondents.
28 U.S. Code § 1651 so provides that
“(a) [t] he Supreme Court and all courts
established by Act of Congress may issue all
writs necessary or appropriate in aid of their
respective jurisdictions and agreeable to the
usages and principles of law and (b) [a]n
alternative writ or rule nisi may be issued by a
justice or judge of a court which has jurisdiction.
Petitioner’s complaint is not a “political question”
but a question of law of “corruption” under 2003-31-

- 17 OCT MERIDA UNITED NATIONS CONVENTION
AGAINST CORRUPTION (UNCAC).
Petitioner’s case provides this Court
jurisdiction for either or both
(i) quo warranto action based on equal
protection to resolve this dispute about ultra vires
actions by deciding whether Biden has the legal
right to remain in and hold the public office of
President, and/or
(ii) writ or rule nisi order to show cause how
Biden show pre-election statements about PCA are
not untrue, instead truthful and not misleading.
(iii) If statements are found true, then this
Court can determine Biden did not comply with
rules of ethical conduct expected after election while
knowing that delivery of PCA promises would be
subject to those ethical rules.
This (iii) means that if one lies, on matters of
life and death, to get votes to get elected, and then
gets elected, they have to show cause why they are
to stay in office if people can die.
In climate matters alleged by Biden and
Kerry in their press releases (and by ‘climate
experts’) to be matters of life or death so as to cause
disruption of Worlds’ economies to pursue solutions,
this Supreme Court is asked by Petitioner to
demand Respondent Biden to show cause why he
should be President when Biden exchanged false
promises about PCA for votes.

- 18Petitioner does not ask the Court to count
votes or decide if Defendant Biden was duly elected
as President or not.
However, as set forth in Petitioner’s
Complaint (ROA 1), Petitioner seeks writ of
mandamus in quo warranto or writ/rule nisi as
‘show cause order’ related to false pretense and
omission and misuse of influence about PCA that
threaten lives.
Buying votes by promising to pay cash as
value is prohibited, then buying votes by promising
entry or re-entry to PCA as value must be
prohibited. Also, such must be abhorred when
traded to create false expectations about PCA being
binding.
13.
Petitioner seeks equal protection as a citizen,
taxpayer, voter and mineral interest owner which is
equal to non-citizens, non-taxpayers, non-voters and
non-owners of mineral interests.
Petitioner does not ask this Court to find
equal protection requires identical treatment of all
persons in all situations.
Petitioner asks this Court to find that, if nonUSA citizen, non-taxpayer, non-owner of mineral
interest is not be subjected to same financial PCAclimate driven risk of de facto expropriation of
mineral assets without compensation, taking of
rights by carbon taxation and other burdens under
same situation, then Petitioner should not have to
suffer those de facto punishments.

- 19 14.
Petitioner’s case thus presents this Court
with jurisdiction of genuine issues of undue
influence related to PCA and energy availability for
national security, economy, environment and/or
public safety.
Petitioner’s case provides this Court jurisdiction to
distinguish between false representations which are
(a) ‘kissing the baby’ (e.g. this is mere
political question, not one upon which life or death
depend)
versus
(c) ‘killing the baby’, i.e. ‘risk loss of life’ by
‘hollow promises’ (e.g. a substantive, egregious lie or
omission of material fact, statements made upon
which life or death depend.)
15. For other subject matter support of Jurisdiction
this Supreme Court, as well as Venue and Standing,
reference is made to Complaint and Motions in
record below.
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
Petitioner’s petition seeks protection by restraint of
RTJVA actors and Government Respondent that
assists them.
1. Petitioner challenges
(i) ultra vires acts of rogue RUVA actors,
(ii) Respondent Government enablement of RUVA
actors,

- 20 (iii) Counsel for Respondent Government caused
delays, oppositions and dismissals that continue
acts of rogue RUVA actors, and
(iv) Courts’ delays and failures in restraining
RUVA.
2. Petitioner has complained of violations by RUVA
and Respondent Government of:
(i) Constitution Article II, Section 2
by false pretenses of
(x) “enduring” PCA as if PCA was/is binding,
long-term, enforceable treaty commitments to
emissions reductions by U.S. and reciprocal from
other countries
(y) RUVA unilateral changes to U.S. PCA, via
change to U.S. INDC (Intended Nationally
Determined Contributions)
(z) no need for Senate advice, consent, 2/3’s
approval for treaty formation and changes
(ii) Constitution Article III, Section 2 denial or
obfuscation that this Supreme Court has original
jurisdiction:
“In all Cases affecting Ambassadors, other public
Ministers and Consuls...”
Such includes this case against RUVA Kerry and all
Ambassadors, other public Ministers and Consuls to
whom RUVA Kerry makes false representations
regarding U.S. emissions reduction without
authority and thus misuses influence and bribes for
reduced emissions of others.

- 21 (iii) 1997 Senate Res 98 against bad Kyoto Protocol
arrangements harmful to U.S.
Public statements by RUVA prove RUVA deploy
PCA and U.S. INDC in violation of said 1997 Senate
Resolution 98 (passed 97-0 with 1997 “yea’ votes of
Biden and Kerry) cited in Petitioner’s CA5 Brief at
pages 60-63, which prohibits Appellee Government
from being
“signatory to any protocol to, or other agreement
regarding, the United Nations Framework
Convention on Climate Change of 1992, at
negotiations in Kyoto in December 1997, or
thereafter, which would-(A) mandate new commitments to limit or
reduce greenhouse gas emissions for the Annex I
Parties, unless the protocol or other agreement
also mandates new specific scheduled
commitments to limit or reduce greenhouse gas
emissions for Developing Country Parties within
the same compliance period, or
(B) would result in serious harm to the
economy of the United States;
(iv) Principles of Ethical Conduct for Government
Officers and Employees waste of Respondent
Government assets and misuse of funds.
Public statements by RUVA prove RUVA seek to
deploy PCA and seek to unilaterally change U.S.
INDC in violation of said Principles of Ethical
Conduct in particular cited in Appellant’s CA Brief
at pages 63-64, whether elected or appointed or
hired with employee status, in particular #6, #9 and
#11:

- 22 6. Employees shall make no unauthorized
commitments or promises of any kind
purporting to bind the Government.
9. Employees shall protect and conserve
Federal property and shall not use it for other
than authorized activities.
11.Employees shall disclose waste, fraud,
abuse, and corruption to appropriate
authorities.
(v) Amendment 1 right to file grievance for redress,
•

Right to petition government for redress of
grievances against RUVA unethical waste of
Federal mineral interest property and
purporting to bind Government to divert
Treasury funds to developing countries without
climate treaty authorization to spell out
respective obligations

(vi) Amendment 5 taking value of Petitioner’s
mineral property without due process and
compensation, and
•

RUVA by Executive Branch orders are taking
Petitioner’s private mineral interest property
without due process and without just
compensation and

(vii) Amendment 14 denial of equal protection
Respondent Government denies Petitioner
protection of his mineral interests from attacks by

- 23 RIJVA and third party climate activists, nonmineral interest owners acting in concert with
RUVA.
3. Among other relevant matter, focus of this Appeal
is thus on above cited:
(a) Constitution
Article II, Section 2
Article III, Section 2
First Amendment
Fifth Amendment
Fourteenth Amendment
(b) Key Statutes
28 U.S.C. § 636 error of law by delegation
to Magistrate Judge delaying injunction
28 U.S.C. § 1254(1) Appellant jurisdiction
28 U.S.C. § 1257 Appellant jurisdiction
28 U.S.C. §1651 all writs
(c) US Senate Records
1997 Senate Resolution S. Res. 98 (See
Exhibit 3)
https://www.congress.gov/bill/105thcongress/senate-resolution/98
(d) Respondent Government
Publications (See Exhibit 4)
Principles of Ethical Conduct for
Government Officers and Employees.
https://ethics.od.nih.gov/principlesethical-conduct-government-officersand-employees

-24(e) Judicial notice requested by Petitioner for
adjudicative facts within UN, White House and
State Department publications Respondents’ own
words.
STATEMENT OF THE CASE
1. Petitioner as grieving party seeks First
Amendment redress from Government
Respondent by this Court granting Exhibit 6
injunctive relief.
Government Respondent is enabling corrupt conduct
by ultra vires Respondent(s) actors (RUVA defined
first above).
Petitioner asks this Supreme Court to find that each
RUVA is not the “Government” when RUVA act
outside scope of governmental authority and thus
corruptly, and cannot be represented by Government
counsel.
Petitioner asked same finding by the Courts below
and received no relief, only received procedural
dismissals. No denials, nor answers, nor appearance
from RVA were received.
Dismissals were caused by counsel for Respondent
Government, not pro-se or non-government counsel
for RUVA.
Petitioner petitions for redress to be protected from
RUVA who purport to act in official capacity but
instead RUVA are clearly well outside authorized
conduct.

J

- 25 -

RUVA’s own words in public releases so prove,
as cited to this Supreme Court and Courts below.
Instead of protecting Petitioner, Government
Counsel and Courts below have delayed relief to
enable continuing corrupt conduct by RUVA.
Government Counsel should pursue RUVA, not
enable them.
Government Counsel, instead, urged procedural
delays and dismissals of this case that points many
fingers toward egregious, corrupt conduct by RUVA.
2. Petitioner seeks default judgment against
RUV.
RUVA (never):
(i) never filed denial, answer or other
responsive pleading,
(ii) never entered an appearance pro se or by
non-government counsel,
(iii) never filed motion for extension of time,
stay or dismissal,
(iv) never asserted in writing that
their ultra
Government Attorney(s) defends
vires plans and acts admitted by their own
publications,
(v) never denied or responded in any other
way to Petitioner’s Summons, Complaint, many
Motions, Brief on Appeal to CA5 or any of dozens of
papers which were served and/or mailed to each of
them,

-26(vi) never denied their own words in various
White House and Department of State releases cited
to the Court(s) which prove acts, and intents to act,
outside scope of proper governmental authority, and
(vii) never denied RUVA are in default for
failing to timely file response to Summons and
Complaint.
RUVA are in default. Petitioner asks this Court to
grant Exhibit 6 as default judgment.
Petitioner is entited to entry of default judgment.
Default, not dismissal, should apply to RUVA.
Government Counsel and Courts below should not
look other directions to avoid seeing RUVA default
Strict technicalities written for civil disputes - non­
governmental and private among
individuals/companies - must be avoided when unfair
to citizen making urgent First Amendment petition
to Government for redress.
Pointing to irrelevant procedures (for example, to
confer with defaulting, non-appearing RUVA) avoids
standing in front of responsibility to know truth
about boundary between permitted acts and ultra
vires acts.
3. Petitioner asks this Court to see the
‘elephants-in-the-room’ constitutional issues,
such as wasting of, taking of, or destroying
value of property without due process and
compensation.

- 27 Public history will remember well big climate-change
push on U.S. economy and structure springing from
PCA.
Trust is an issue.
Now stage is set for this Supreme Court to be lead
actor.
‘Act well your part, for there all honor lies’,
commends Pope, his Essay
4. Petitioner asks if this Supreme Court will
act in lead role to grant Exhibit 6 protection
according to fairness inherent in equity for
merits of substance, not form over substance.
Petitioner asks this Supreme Court to act in
that lead role to grant Exhibit 6 before
October 31 2021 (start of UN COP26 climate
meeting in Glasgow) [see RUVA’s own White
House and Department of State releases].
Otherwise, from said RUVA’s own words
within above requested judicial notice of facts,
it is obvious additional serious harm will be
caused by additional unhinged, unrestrained
ultra vires, bad acts of RUVA that will create
serious harm to interests of Petitioner (and of
others and to US economy).
After October, more will follow. The more must stop
until Article II Section 2 Senate advice, consent and
two thirds approval is obtained to create layer of
protection for Petitioner and others.

- 28 -

Unless this Supreme Court restrains RUVA
then Petitioner and others
- risk massive disproportionate financial
harm by burdens imposed on U.S. that are not
shouldered proportionately by those within certain
‘developing countries’ whose mineral resource
reserves exceed those of the USA
That is, there is no level economic playing
field and equal economic protection cannot happen.
- risk looting from USA Treasury ‘in the
name of climate need’, which can quickly start
with RUVA announced proposed unauthorized US$
Billions passed to UN Green Climate Fund then
increases with other unauthorized payments under
guise of climate action equity
That is, there is lack of equal protection for
Petitioner (and others in U.S.) with uneven RUVA
grants to push U.S. Dollars to others in name of
alleged climate equity, which create inequity not
equity. That is not a political question, but
Constitutional one for Senate Article II, Section 2
decision.
- risk major exposures to suits from
citizens or other countries akin to French and
Dutch plaintiffs prevailing for claims akin to ’’non­
respect of engagements”. For example, it is well
known that a Paris court has found the French state
guilty of failing to meet its commitments to curb
greenhouse gas emissions.

- 29 •
- risk RUVA entry to, and acts pursuant
to, arrangements such as the Paris Climate
Accord, considered as a treaty by UN agencies
and other countries, but which instead are
‘sometimes binding, sometime not’
Chief Justice Roberts’ in Medellin v. Texas 552 U.S.
491 (2008) at 510, 511 states the disbelief and
challenge upon which this petition is based:
“It is hard to believe that the United States would
enter into treaties that are sometimes enforceable
and sometimes not. Such a treaty would be the
equivalent of writing a blank check to the judiciary.
Senators could never be quite sure what the treaties
on which they were voting meant. Only a judge could
say for sure and only at some future date. This
uncertainty could hobble the United States’ efforts to
negotiate and sign international agreements.”
“To read a treaty so that it sometimes has the effect
of domestic law and sometimes does not is
tantamount to vesting with the judiciary the power
not only to interpret but also to create the law.”

REASONS FOR GRANTING THIS PETITION
Petitioner asks this Court to restrain RUVA to
act within scope of authority, not corruptly.
Petitioner sets out above questions of law, not
political questions.
Answers to questions of law in this case
determine boundary between proper, authorized
scope and ultra vires acts.

- 30 ■

Answers to questions of law will have political
consequences but that does not convert questions of
law to politics.
Reasons to grant Exhibit 6 Order for
injunctive relief [or to fashion other just relief which
this Supreme Court has the power to do] are as
follows:
Reason #1: Restraint that I request
provides me with financial protection and
relief I seek.
But, it is not ‘all about me’ even though
restraint protects me.
As a Marine, I fought in Vietnam ‘not for me’
but to serve our country.
I marched to an objective, complex yes, but
then within scope properly authorized, and later
authorization properly changed.
RUVA unilateral Executive Orders and
conduct based on those, do not serve a government
of the people. They march away to their own
objective, unstrained.
Unrestrained rogue RUVA make the
government “a government of RUVA Executive
Orders” not a government of the people, then they
help themselves and their friends to the Treasury
of the people.

J

- 31 Public confidence is lost but can be restored by
this Supreme Court.
For admonishment of RUVA, this Court
should restrain RUVA thinking that:
“it is easier to ask for forgiveness than permission”
Reason #2: Restore belief for me (and
others) in ethics and honor in government and
in the Courts that are to watch over all.
I confess, while writing this, that I have
very, very low confidence that the Supreme
Court will read these words and act upon my
Petition. Clerks “take no action on” multiple
filings, but instead reject them for poor reasons, for
example, requiring a conference with defaulted
RUVA who never appeared after Summons or filed
denial or otherwise responded in over six months.
Now skeptical 2021 U.S. public listen for
signs of a heartbeat of ethics to hope to
believe honor is alive in government.
Many fear responsible, ethical government is
dead, and Courts cannot revive it.
This Supreme Court must signal to a very,
very anxious public that this Court guarantees:
(1) timely resolutions of time-sensitive and
serious petitions to Government for protection by
seeking redress - like this one of Petitioner, less
than perfect, for commercial cases, but perfect for
Amendment I, V and IV purposes,

- 32 (2) First Amendment is not dead, and
(3) U.S. government can be peacefully restored
as government of the people for the benefit of the
people.
Show that U.S. government is not of a cast of
rogue RUVA who pen unhinged Executive Orders in
back rooms then nail them as mandates on the
White House website, without public interface.
Show and reassure by grant of this Writ of
Certiorari to Petitioner and grant of Exhibit 6
Order.
Reason #3: This Court’s review, with decision
and grant of Exhibit 6 order requested by
Petitioner are warranted.
Repeated RUVA Executive Orders making
unhinged mandates are problematic against my
planning, investments, and risk taking and
decisions for assets retention or disposal.
The claims at issue are non-frivolous and urgent.
I complain of unilateral mandates, without proper
foundation, having effect of laws regarding climate,
and those being made without required advice,
consent and Senate votes of approvals for binding
international relations.
Petitioner’s questions of law are obviously not
political questions and should not have been
delayed, ignored or dismissed by Courts below but
instead decided by them.

- 33 Proper resolution of questions presented here are
matters of great Constitutional importance.
Absent admonishment and restraint of RUVA, only
those within RUVA personal circles will know in
advance what the next series of Executive Orders
will be and when they will occur.
That gives chilling effect to decision making, and
certainty of planning, for those outside of the circle
of RUVA.
Petitioner asks this Court to reaffirm
“[t]he President’s power to see that the laws
are faithfully executed refutes the idea that he
is to be a lawmaker.” Youngstown Sheet &
Tube Co. v. Sawyer, 343 U. S. 579, 587 (1952)
Confirm please that the Constitution mandates
conscientious deliberation by Congress as the law­
making branch and guards against political
misconduct by misuse of influence by Executive
Branch when Executive Branch acts as law-maker.
The public can then be confident that, rather than
denying a forum for colorable constitutional claims,
the Courts will
(a) answer outcome determinative questions of
law placed before them by seekers of First
Amendment redress, and
(b) produce answers to questions of law in fact
based manner by accurate judicial decisive decisions
(not advisory views) as to what is ultra vires
conduct and what is not, going forward toward life­
determining, critical climate matters, and

- 34 (c) give RUVA admonishments that protect
against unhinged, unrestrained, improper Executive
Branch Executive Orders creating mandates for
emissions reductions and economic clay shaping
that are outside scope of Executive Branch
authority.
This case presents a clean package for
answering the controlling questions of law
presented.
This Court should take this opportunity to
restore public confidence throughout
the Nation
that the First Amendment enables persons to
petition the government for redress of grievances,
without being tripped or blocked by superfluous
government-made procedures that delay or block
timely access in First Amendment case.
CONCLUSION
Before October 31, 2021 start of UN Glasgow
climate conference start, this Petition should be
granted and Exhibit 6 Order should be granted or
this Court should fashion other just relief.
If this Petition and Exhibit 6 Order are not
granted, this below “history look-back” gives
one possible prospective view from the future:
•
•

•

First Amendment rights become frozen. No one
uses them.
Government-made ‘procedural rules of the game’
put in place are strictly asserted by the
government.
Those “rules of the game” procedures enable only
the outcome(s) the government desires.

- 35 •

•

•

•

Those Government-made rules ‘control the game’;
persons seeking redress of grievances become
disfavored in treatment by reason of their views.
That creates frustration to stop complaints.
Individuals who try to exercise core First
Amendment right of asserting grievances against
the government are penalized.
Neither urgency nor emergency cannot be
addressed. Speed is not possible. Putative ‘rules
of the game’ enable district and appeals courts to
control rejections.
Predictable harmful events, for which protection
is sought by plea for help, will happen without
admonition and restraint of bad ultra vires
actors.

That above future is what Petitioner alleges
could be here today in the present if this Court does
not act. To avoid that future, this Petition should be
granted and Exhibit 6 Order should be granted.
This Petition is 100% controlled by Petitioner.
Petitioner has not asked for nor received any third
party funding in this case, only receiving pro bono
“assisted pro se” work from his brother as set forth
in February 24, 2021 Letter to (District) Court,
copied to all Respondents. Brother confirmed to me
that he has not asked for nor received any third
party funding in this case.
In closing, by signing below Petitioner assures
this Court that his Petition contains his concerns
which raise serious Constitutional questions and are
not frivolous.

- 36This is Petitioner’s serious prayer for
protection by this Court.
Respectfully submitted,
/s/ Kenneth A. Pruitt, pro se
Trailer Village RV Park
16580 N. US Hwy 59
Garrison, Texas 75946
(936) 714-3811
kap8063@yahoo.com
October 10, 2021

